1
Supreme Court, U.S.
FILED

NOV 1 7 2020
No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Scott Hildreth
— PETITIONER

(Your Name)

Kim Butler,Lori Oasley and
Wexford Health

vs.
Sources Inc

:-------- —-- ----------- — RESPONDENTS)
ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOURCASE)
PETITION FOR WRIT OF CERTIORARI

Scott Hildreth
(Your Name)
P 0 BOX 1000
(Address)
Menard ILL 62259
(City, State, Zip Code)

(Phone Number)

£

fi)Fhn
1 m
m m I
tJlt

p

fe

"

Questions Presented
1)

Is it right that the defendant Wexford health service,(Menard C C )
have returned to their same old song and dance and have been not properly
or timely refilling plaintiffs Parkinsons medications ?The plaint if has
not.been recieving his full perscribed doses of Mirapex for months now
he is supposed to take 3.75 mg a day thats a 1 mg tab and a .25 mg tab
3 x a day he has only recieved the 1 mg tabs for the months of July Aug
and spept its now Oct still no .25 put in orig sticker put in requests,
told nurses ,tiled emergency grievance warden concured energency 1
from clincal servicers a summary 39/30 20, emergency griev dated
y 25 20 supposed to respond within 48 hrs ? regardless its now oct 12 20
no reply no meds / What am I supposed to do give up ? jjust accepjb that
n't one cares > no ones going to do anything about it ?(Griev # 319 9 20)

2)

Is it just a matter of a convicted person in the State of Illinois
can be treated anyway,that a person is not supposed to be treated accordng to the 8th amend, of the U S Constitution ?

3)

Isn t a convicted person entitled to consideration to decent treatment,
medically and humanly under the 8th amend. ?

4)

If it would please the court and if the plaintiff had known he was o
obligated to show or includeother peoples problems in his own personal
complaint, making it basically a class action he would have done so
is this the case on an individuals personal claim under the 8th Amend.?

d)

I&n,t it a privacy issue ,even a legal or confidantil issue of another
inmates medical history or file from population or other r'lndom inmates
how is one inmate supposed to get information on another inmates medical
Inscriptions delivery or any other form of his medical
situation . So he can use it in a personal law suit ? And what does ,
John Convict Doe s medical history or medicine history have to do with
Scott Hildreths ?

6)

p*w15
Court of Appeals, where in a rare eh bonch, three more judge -joined in dis­
sent ?
(Rovner,Scudder,and Wood )
J

7-)

?

Should plaintiff Scott Fjildreths complaint have been dismissed on
Summary Judgementwhdn Magistrate judge Wilkerson denied and set for trial
2n dls MeCS°'J1jdatL°? ^hen i? fact he
all the work on the Case hearings
avmg Mr Hildreth before him personally via video confrense court, and
qcctually made a sound decision on facts related directly to him by all
parties including incarcerated plaintiff,defendant Wexford ect.and then
Judge Rosentstengle over rode that decision on her say so of ?
hen the U S Court of Appeal for the 7th Circuit went against their own
prior decisions on point the made their ruling based upon?

LIST OF PARTIES
A)

Wexford Health Services,Inc

B) Kira Butler at time of icident and suit Warden Menard C C
B) Lori Oakley Employee 1D0C, MEnard C C Grievance Officer
C) Original l.ruling denying Summary '/Judgement by Magistrate Judge Wilkinson
early in court hearings. The magistrate Judge denied the motion for
summary judgement before US Circuit Judge for Southern Illlinois NANCY
Rcsenstengle over rode his decision in motion for reconsideration,where
she didnt have anything good to say about him and wrongly granted the
summary motion which changed the case from being set forvtrial to the
Appeal process now long in standing.He is not mentioned or his denying
Summary Judgement .
Magistrate Judge Wilkinson
Beging of case being litiggated by Gdurt
D) U S Southern Illinois District Judge Nancy Rosenstengle
E) U S Court of Appeals 7th Cir Diand S Sykes, Chief Judge, David F.Hamilton Cir Judge, and Michael B Brennan Cir Judge.
F) U S Court of Appeals 7th Cir EnBonch Panel Before,Sykes Chief Judge,
Flaum,Esterbrock,Kanne, Rovner,Wood,Hamilton,Barrett,Brennan,Scudder,
and St; Eve Cicuit Judges

i
i
$

i
]

Case: 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

“Petition
Certiorari

TABLE OF CONTENTS
INTRODUCTION AND RULE 35(b)(1) STATEMENT.
BACKGROUND.................. ................
A. Hildreth suffers from Parkinson's disease and requires
medication....................................... .................................. .

£ r t’l

B. Wexford is responsible for chronically ill inmates' medications

l =11

1.

Wexford has a medication-refill policy with numerous
potential points of failure and no backups or warning
channels.......................................

f> =12

Wexford has a separate medication-renewal policy with
numerous potential points of failure and no backups or
warning channels

3 = 12

Despite complying with Wexford's refill and renewal policies,
Hildreth experiences multiple medication lapses while in
Wexford's care................ ................................................................

£ ~13

D. The Majority rules for Wexford, holding that Hildreth cannot
prevail without also proving harm to other inmates and a pattern
of prior similar violations...............................................................

£ = 14

E. Judge Hamilton dissents, explaining that Wexford's medication
system is itself deliberately indifferent and that the Majority's
approach is "at odds" with Glisson...............................

£

= 15

1

* 16

2.

C.

ARGUMENT....................................................
The Majority's Decision Effectively Abrogates
Glisson and J.K.J...................................................................................
A. Glisson and J.K.J. held that deliberately indifferent institutional
systems are actionable under Monell, even if they injure just one
inmate without a pattern of prior similar violations............. .

/ = 16

4

B. The Majority's decision turns on precisely what Glisson and J.K.J.
rejected: proof of harm to only one inmate, and a failure to prove
an unstated "magic number" of prior injuries.............
C. Hildreth demonstrated a deliberately indifferent Wexford system
for medication delivery under Glisson and J.K.J..................
CONCLUSION
PANEL OPINION

r

— 16

= 18

vi

=■ 20
= 22

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ H For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix JL
the petition and is
OF APPEALS ____________
7th Cir
[ ] reported at U S COURT
________________
or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix _
the petition and is
^ reported at. HILDRETH V BUTLER 960 F 3d 420. or.
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix --------to the petition and is
[ ] reported at ______________.
_______ _ ; or,
[XJ has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

to the petition and is

[ ] reported at ___
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

court

to

_ to

JURISDICTION

[ ] For cases from federal courts:
The daikon
was
y

United States Court of Appeals decided my case

[ ] No petition for rehearing was timely filed in my case.
[XJ A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
Aug 1q ?n?o
, and a copy of the
order denying rehearing appears at Appendix
C
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______________ _ (date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix c
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

t

CONSTITUTIONAL PROVISIONS INVOLVED
UNITED STATES CONSTITUTION:
Amendment V; ....nor be deprived of life,liberty,or
property,without due process of law..
Amendment VIII ; Excessive bail shall not be required,
nor excessive finesimposed,nor cruel
and unusual punishments be inflicted.
Amendment XIV ; ........nor shall any state deprive any
person of life,liberty or property,with­
out due process of lMwjnor deny toyanyy
person within its jurisdiction the
equal protection of the laws.

K
A)

APPENDICIES
Reply of Appellant Scott Hildreth,aug 12 2016.

B) appeal decision Majorityfinding May 19 2020 pgs 1 through 21
C) Judge Hamilton ^Dissenting May 19 2020*pgs 22 through',41
D) Panel Opinion ,petition rehearing En Bonch aug 19 2020
E) case docketing statement district court*
F) REPORT AND RECOMMENDATION OF U S DIST COURT MOTSTRATE WILKERSON 10 pgs
G)

’ J

U S DISTRICT COURT JUDGES

MEMORANDUM AND ORDER

IS pgs

Case: 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

INTRODUCTION AND RULE 35(b)(1) STATEMENT
Dissenting in this case, Judge Hamilton explained that the Majority's decision
"adopts a highly restricted approach to establishing a Monell custom" in prison
health-care cases that is "at odds with [this Court's] precedent/' that "rewardfs]
deliberate ignorance by prison medical contractors, and that incorporates reasoning that is just clearly wrong." Dissent 33, 38-39. Rehearing is necessary.
Indeed, the Majority's ruling cannot be squared with this Court's en banc de­
cisions in Glisson v. Indiana Corrections Department, 849 F.3d 372 (7th Cir. 2017), and
J.K.J. v. Polk County, — F.3d —-, 2020 WL 2563256 (7th Cir. 2020). Both rulings ap­
plied Monell's policy-or-custom framework to reinstate Eighth Amendment liabil­
ity against prison entities whose institutional systems reflected deliberate indiffer­
ence, even without evidence of a pattern of prior similar violations. And both de­
cisions expressly rejected arguments that the Majority revived here-arguments
derived from the dissenting opinions of Glisson and J.K.J. See Glisson, 849 F.3d at 38390 (Sykes, J., dissenting); J.K.J., 2020 WL 2563256, at *17-44 (Brennan, ]., dissenting
in part). The Majority s decision thus threatens to turn these dissenting views into
the law of this Circuit, even after the en banc Court rejected them in Glisson and
J.K.J. To restore uniformity to this Court's precedent in this important area of the
law, rehearing should be granted.
BACKGROUND
As summarized below, Judge Hamilton's dissent captures the key points of
this complex summary-judgment record. Dissent 25-30; see also Hildreth Br; 2-12.
/rpl

,,

...

,

,

(The panel s opinion is attached to this petition.)

3-*-.,^capp C

'I

,pp .

• * • AFF A

BRIEF BACKGOUND OF CASE HISTORY
Petitioner Scott Hildreth,was having problems geting:hismediction ,he suffers fromParkinsons Disease,which causes,problems walk­
ing, with balance , can not makelegible communications by hand. (Writting)
>the fact of not recieving medication on tie is a at least two fold *
thing.it exasserbates his;.condition,the illness,and symtoims,and added
a new one the most disturbing one.or symfcom ofwhich he has not previous']
ly had ! called"frfeszwhgrepSieogefc^ stuckir. midstride while walking
,and can not,~ move foward:: ,ihis feet go in placenand he can not propel
himself ahead ,it s like sort of running in place no foward motion
it s very humiliating and he has been teased about it alot,but not by
other convicts butby officers and staff at Menard C C.
So. petitoner files grievances gets in response ,every excuse or no
response at allmost grievancees are illegible unless he had library
time and could use a typewriter.At the original hearing infront of
Magistrate Judge wilkinson on video court over the internet , some
of the grievances that were gone over between counsel's ,court,and
petitionerwere illegible the petitioner and Magistrate Judge could
not interpret what grievance said or was attempting to convey some
of them had to be abandoned
The Magistrate Judge was a very reasonable man honorable held many
hearings in his court and came to the determination when Wexford and
Butler moved for Summary Judgement,that it be denyed and set the
matter for trial then the respondent Wexford filed for reconsidergitipn and thats when Judge Rosestengle stepped in and over rode the
Magistrate Judge and granted Summary judgementshe with no actual M
knowledge of what transpired at all the prior hearings as magistrate
judge did
So petitioner asks for leave to appeal gets it and apeals
At that point petitione gets a real good law firm appointetorepresent him JONES DAY and he is very pleased with the representation
he recievedeven though the outcome so far
They fileApppeal and rehearing En Bonch and we find the case here
at the UnitedStatesSupreme Court
Nowhere in the latest filings does it say anywhere or mention
MAGISTRATE Judge Wilkinson denying the SummaryJUdgement and setting
case for triall ?
The fact that only three times were the count of incdents
of meds failure too refill or recieve timely is because many or most
of the grievances wereillegible

w

Case: 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

A. Hildreth suffers from Parkinson's disease and requires medication
Appellant Scott Hildreth is a 62-year-old state prisoner with Parkinson's dis­
ease, an incurable neurological disorder. He shuffles to walk, has poor balance,
and suffers from muscle tremors and freezing episodes that cause him to, for ex­
ample, slide out of chairs and get stuck in place. Hildreth Br. 2.
"Parkinson's has no known cure" —but "medication can help control the symp­
toms," and "Hildreth needs a drug called Mirapex." Dissent 26; Hildreth Br. 3.
"Without Mirapex," Hildreth's "Parkinson's symptoms return within a day or
two" alongside painful withdrawal symptoms—"poor balance, stiffness, shaking,
fevers," hot flashes, "memory problems, and freezing episodes" —"leav[ing] him
'immobile' and 'balled up in bed.'" Dissent 26; Hildreth Br. 3. "Any lapse in medi­
cation causes [Hildreth] pain and puts him at risk of injury." Dissent 26. "For Hil­
dreth, the difference between having medication and not having it" is therefore
"day and night." Dissent 26; Hildreth Br. 3.
B. Wexford is responsible for chronically ill inmates' medications
Appellee Wexford Health Sources—a private medical contractor—has "pri­
mary responsibility for overseeing prisoner treatment, including prescribing med­
ication and setting prescription policies," at Hildreth's state prison, Menard Cor­
rectional Institute. Dissent 27; Hildreth Br. 4. Wexford knows about Hildreth's dis­
ease and his Mirapex prescription, which calls for three pills per day (about 90 pills
per month), and knows that Mirapex is effective to treat symptoms of Parkinson's
disease. Dissent 35-36; Hildreth Br. 5; A208, 265, 275, 277. Wexford also knows
what happens when a patient is deprived of Mirapex: the swift return of Parkin­
son's symptoms alongside painful withdrawal symptoms. Dissent 35-36; Hildreth
Br. 5; A265-66.
-2-

it

Case: 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

1. Wexford has a medication-refill policy with numerous potential points
offailure and no backups or ivaming channels
Demonstrating its awareness of the serious health and safety risks of untimely
medication delivery, Wexford has a medication-refill policy for chronically ill in­
mates, like Hildreth, who rely on medication. Dissent 27; Hildreth Br. 5-6, 34-35.
Judge Hamilton detailed this policy's operation and explained how it applied to
Hildreth:
Wexford treats the Mirapex that Hildreth needs as a "nonformulary medi­
cation." This means that the drug is not kept in stock at the prison but is
shipped as needed from an outside provider, Boswell Pharmacy Services.
Wexford's nonformulary medication refill policy requires a sequence of actions to
get the medicine to an inmate. Hildreth receives one month's supply of
Mirapex at a time. When he receives the pack of pills, he also receives a
sticker that he must turn in to a nurse at most seven days before he runs out.
After he returns the sticker to a nurse, Wexford is supposed to send the
sticker to Boswell. Boswell is then supposed to ship a refill to Menard, and
the nursing staff is supposed to deliver the refill to Hildreth. Dissent 27.
Hildreth has complied with this refill policy by timely turning in his refill stick­
ers. Dissent 30. But nurses have "refused to accept [Hildreth's] refill sticker[s],"
"refused to check on the status of his refill" after his medication supply lapsed,
and repeatedly told him "only to 'wait and see' if the refill would come," without
further action. Dissent 33, 38.
2. Wexford has a separate medication-renewal policy ivith numerous
potential points offailure and no backups or ivaming channels
Wexford has also adopted a separate medication-renewal policy for chronically
ill inmates, like Hildreth. Dissent 28; Hildreth 5-6. Judge Hamilton detailed this
policy/too:
In addition to the refill policy, Wexford has a prescription renewal policy
for inmates like Hildreth with chronic illnesses. Such inmates are supposed
to be signed up automatically for clinic visits at least every six months.
-3-

Case: 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

These visits serve a key function in coordinating care for chronically ill pa­
tients and making sure their medical needs are met. At these clinics, pa­
tients are seen by a Wexford physician or nurse practitioner who will then
write any necessary prescriptions, which will last between six months and
one year. Dissent 28.
Hildreth has complied with Wexford's renewal policy as well by attending his
chronic clinics when Wexford has sent him a pass to attend. Dissent 30. But Hil­
dreth "did not regularly receive [chronic-clinic] passes" for his medication's re­
newal, as the policy prescribed; he was instead "seen by doctors" at "irregular in­
tervals" and sometimes not at all. Dissent 28.
C. Despite complying with Wexford's refill and renewal policies, Hildreth
experiences multiple medication lapses while in Wexford's care
Wexford's system for medication refills and renewals failed to "reliably supply
Hildreth with his Parkinson's medication," despite his compliance with them. Dis­
sent 28-29. As Judge Hamilton explained, "Wexford policy relied on what a man­
ufacturer would call 'just-in-time' supply control," operating with many moving
parts, and thus many opportunities for employee "mistakes [that could] shut
down the assembly line" entirely. Dissent 28.
Unfortunately, Wexford's medication system did indeed fail Hildreth repeat­
edly, causing medication lapses and needless suffering: the swift return of debili­
tating Parkinson's symptoms, compounded by painful withdrawal symptoms. In­
deed, the "record contains evidence of at least three [such] medication lapses over
a period of nineteen months." Dissent 29. * At one point, Hildreth went without his

*In total, the record reveals eight instances of either medication "delayf]" or "ob­
struction]" since October 2009. Hildreth Br. 7-12; Reply 7-10. But see Majority Op. 15-17
(declining to consider five of these instances). The Majority's exclusion of two of these
instances, taken from inmate Michael McGowan's affidavit, is "just clearly wrong" as a
—4—

Case: 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

medication for "at least ten days"—a "long lapse" that was "exceptionally painful
and dangerous for [him]." Dissent 30.
"In each instance," Hildreth undisputedly "did the only things he could" un­
der Wexford's medication system to "bring the lapse to the attention of those re­
sponsible for his care": "speaking to the nurses on duty and filing grievances."
Dissent 29. But neither approach worked. Nurses brushed him off or outright re­
fused his pleas for help. Dissent 33, 38. And Wexford "ignored Hildreth's griev­
ances" altogether, "seemingly by design," as it was "not involved in the grievance
process" in any way, despite its responsibility for medications. Dissent 37, 39.
Thus, as Judge Hamilton vividly described, Hildreth's grievances "give the im­
pression of a person in pain, screaming into a void." Dissent 38.
D. The Majority rules for Wexford, holding that Hildreth cannot prevail
without also proving harm to other inmates-and- a pattern of prior'
similar violations
Notwithstanding all this undisputed evidence, the Majority affirmed summary
judgment for Wexford on Hildreth's Eighth Amendment Monell claim, rejecting
Hildreth's arguments "on two axes." Maj. Op. 10. First, the Majority held that, re­
gardless of what Hildreth undisputedly established about his own medication
lapses, he could not prevail without also showing that other inmates suffered med­
ication lapses as well. Maj. Op. 10-11. Second, the Majority held that Hildreth could
riot prevail by showing only three medication lapses over 19 months. Maj. Op. 1118. Having treated these two "axes" as threshold requirements, the Majority did
not analyze Wexford's system of policies for medication refills and renewals in any

"matter of elementary evidence law" for all the reasons that Judge Hamilton explains,
Dissent 32-33, and that Hildreth explained previously, Hildreth Br. 38-39; Reply 5.
-5-

Case: 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

way. Nor did the Majority make any attempt to distinguish Glisson or

even

though they bore directly on the Court's analysis.
E. Judge Hamilton dissents, explaining that Wexford's medication system
is itself deliberately indifferent and that the Majority's approach is
"at odds" with Glisson
Judge Hamilton dissented, explaining that the Majority's approach was "at
odds with [this Court's] precedent" in Glisson and other cases. Dissent 39, 22. He
explained that Hildreth "offered sufficient evidence that Wexford knew of his se­
rious health needs—which required reliable, timely refills of his Parkinson's med­
ication—and acted unreasonably in response to those needs," as "Wexford estab­
lished prescription refill and renewal systems, i.e., policies, that did not include
warnings and back-ups to correct inevitable and serious mistakes." Dissent 22.
Judge Hamilton "[c]ompare[d] Hildreth's situation to that of a hospital patient
on a ventilator that is keeping the patient alive." Dissent 36. "The machine runs on
electricity," "[e]lectrical power will be interrupted from time to time by storms and
equipment failures," and "[m]achines like ventilators occasionally break down."
Id. Accordingly, "[a]ny reasonable hospital must anticipate the possibility of those
interruptions and breakdowns, and it must have alerts and a back-up system in
place." Id. "Similarly here, Wexford may be deemed to have actual knowledge of
both the obvious possibility, even the inevitability, of mistakes or lapses in its re­
newal and refill systems and of the serious consequences for patients if those were
not corrected." Id. "Wexford thus had [an Eighth Amendment] duty to take rea­
sonable steps—warnings and back-up systems—to mitigate the effects of inevita­
ble mistakes and oversights"—yet it undisputedly did nothing. Id. "That's
enough," Judge Hamilton explained, "to show deliberate indifference" under Glis­
son and the Eighth Amendment. Dissent 22.
-6-

/f
r

Case: 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

ARGUMENT
Rehearing should be granted. As Judge Hamilton explained, the Majority's me­
chanical approach is "at odds with [this Court's] precedent" applying Monell in
prison cases, including Glisson. Dissent 39. Rehearing is thus "necessary to secure
... uniformity of [this Court's] decisions." Fed. R. App. P. 35(a)(1). Indeed, the Ma­
jority's decision turns on reasoning from the dissenting opinions in Glisson and J.K.J.
See Glisson, 849 F.3d at 383-90 (Sykes, J., dissenting); J.K.J., 2020 WL 2563256, at *1744 (Brennan, J., dissenting in part). And this case presents issues of "exceptional
importance," Fed. R. App. P. 35(a)(2), as demonstrated by this Court's decisions to
rehear Glisson and J.K.J. en banc. Because the Majority's decision violates Glisson
and J.K.J. and muddies the waters in this important area of Circuit law, rehearing
should be granted and the Majority's errors rectified.
The" Majority's Decision EFFECfivELi/ Abrogates Glisson and J.K J.
A. Glisson and J.K.J. held that deliberately indifferent institutional
systems are actionable under Monell, even if they injure just one
inmate without a pattern of prior similar violations
1. In Glisson, the en banc Court held that, "if institutional policies are them­
selves deliberately indifferent to the quality of care provided" to prisoners, "insti­
tutional liability" under Monell's policy-or-custom framework "is possible." 849
F.3d at 378. There, a prison medical contractor had no system in place "requir[ihg]
any kind of formal coordination of medical care" for prisoners with "serious health
problems." Id. at 374, 379. "One [did] not need to be an expert" to see the obvious
risks for inmates that these policy gaps created, about which the contractor chose
"to do nothing." Id., at 382.
For Nicholas Glisson, a prisoner with, "severe disabilities" known to all, the
results were deadly. Id. at 374-75. Just 37 days after entering prison, he died due to

fa.

Case: 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

inadequate, uncoordinated medical treatment. Id. at 373-75. The Court reversed
summary judgment for the medical contractor, holding that Monell "require[s]"
prison medical providers "to ensure that a well-recognized risk for a defined class
of prisoners not be deliberately left to happenstance." Id. at 382.
Judge Sykes dissented, advancing arguments just like those that the Majority
embraced in the present case. There was "no evidence" in Glisson, Judge Sykes
wrote, "that other inmates were harmed," and the "plaintiff's own injury, standing
alone," was not enough to sustain a Monell claim in her view. Id. at 386,388 (Sykes,
J., dissenting). Glisson's factual record also did not reveal a pattern of prior similar
harm, and Judge Sykes argued that a Monell plaintiff should be required to prove
"more than one constitutional injury." Id.
The full Court in Glisson explicitly rejected these dissenting views. It did not
matter, the en banc Court held, that only one prisoner (Glisson) was harmed or
that the plaintiff did not prove a pattern of prior injuries, as "[t]here is no magic
number of injuries that must occur before [a] failure to act can be considered deliberately
indifferent." Id. at 382.
2. J.K.J. reaffirmed Glisson. There, the en banc Court reinstated two prisoners'
Eighth Amendment Monell claims asserting "gaps in the County's [prison] sexual
abuse policy." 2020 WL 2563256, at *7. Specifically, the policy "prohibited sexual
contact between inmates and guards" but "failed to address the prevention and
detection of such conduct." Id. at *1; id. at *5, *8, *10. The need for these measures,
the Court held, was "as obvious as obvious could be" (as the "confinement setting
is a tinderbox for sexual abuse"), yet the County "chose the one unavailable op­
tion—doing nothing." Id. at *10-11. As a result, a prison guard sexually abused the
plaintiffs, with no County response. Id. at *1-2. Affirming a jury verdict for the
-8-

n

Case: 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

plaintiffs, the full Court held that Monell liability was warranted for the County's
"choice to stand idly by while the female inmates under its care were exposed to
an unmistakable risk that they would be sexually assaulted." Id. at *13.
Judge Brennan dissented, with Judge Sykes joining his opinion, again offering
arguments that the Majority in the present case applied to reject Hildreth's Monell
claim. Judge Brennan argued that Monell liability could not lie absent a "pattern of
prior similar violations"—one injury to one prisoner was not enough. 2020 WL
2563256, at *27; id. *17. And Judge Brennan argued that there were, "no prior in­
stances of similar sexual assaults" or "rape" of other inmates in

thus pre­

cluding Monell liability under his reading of precedent. Id. at *30, *32. •
The full Court expressly rejected these dissenting views. Monell liability was
warranted, the Court held, even though the inmates "presentjed] no such pattern"
' C-.Yv

of prior similar violations. Id. at *9 (majority opinion). Indeed, under this Court's
precedents, it did "not matter that no one had been hurt before." Id. at *9-10. •
B. The Majority's-decision turns on precisely what Glisson and f.K.f.
rejected: proof of harm to only one inmate, and a failure to prove
an unstated "magic number" of prior injuries
The Majority ruled against Hildreth only by introducing limits on Monell lia­
bility that the full Court expressly rejected in Glisson and J.K.J. Indeed, the Majority
applied arguments advanceid in Glisson's and J.K.J/s dissenting opinions as though
those opinions carried the day—without even attempting to distinguish these en
banc decisions' majority opinions. To restore uniformity to this Court's precedents
in this important area of Circuit law, rehearing should be granted.
According to the Majority, and as discussed above, Hildreth's Monellclaim
"fails on two axes": (1) "his allegations of delays .., involve only him," and (2) he
"substantiated // // only three" medication lapses arid thus failed to demonstrate a

Case: 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

pattern of prior constitutional injuries. Maj. Op. 10. Glisson and J.K.J., however,
foreclose both "axes."
1. In Glisson, too, there was no evidence that other inmates suffered as a result
of the prison contractor's inadequate system for "formal coordination of medical
care" for prisoners with "serious health problems." 849 F.3d at 374, 379. The evi­
dence was limited to only one prisoner's personal experiences. Id. at 374-78. Judge
Sykes argued that this foreclosed Monell liability in her dissent: There was "no ev­
idence that other inmates were harmed," and the "plaintiff's own injury, standing
alone," was insufficient. Id. at 386, 388 (Sykes, ]., dissenting). But the majority dis­
agreed and held that the plaintiff's claim could proceed regardless of whether any­
one else had suffered due to the prison's inadequate health-care system. Id. at 380
(majority opinion). Other decisions of this Court have held the same. See, e.g., Dan­
iel v. Cook Cty., 833 F.3d 728, 734-35 (7th Cir. 2016) (with proof of "systemic and
gross deficiencies" in prison-medical "procedures," a plaintiff "need not present
evidence that these systemic failings affected other specific inmates"); Davis v.
Carter, 452 F.3d 686, 695 (7th Cir. 2006) (same). The Majority's decision thus di­
rectly conflicts with Glisson and these other precedents, injecting substantial un­
certainty into this Court's Monell jurisprudence.
2. The same is true for the Majority's conclusion that proving "only three"
medication lapses categorically precludes Monell liability. Maj. Op. 10. The plain­
tiff in Glisson proved only one constitutional violation. 849 F.3d at 382. This
prompted Glisson's dissenters to argue that Monell plaintiffs must "produce evi­
dence of more than one constitutional injury." Id. at 387 (Sykes, J., dissenting). But
the full Court disagreed, emphasizing that "[tjhere is no magic number of injuries
that must occur before [a] failure to act can be considered deliberately indifferent."
- 10 -

if

Case: 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

Id. at 382 (majority opinion); id. at 381 (the record need not "reflect[] numerous
examples" of harm).
This occurred in J.K.J. as well. There, the dissenters argued that a plaintiff must
prove a "pattern of prior similar violations" to establish Monell liability. 2020 WL
2563256, at *17, *27 (Brennan, J., dissenting). But the full Court rejected this view,
finding liability even though the plaintiffs "present[ed] no such pattern." 2020 WL
2563256, at *9 (majority opinion).
Accordingly, Judge Hamilton's dissent in this case captures the Majority's er­
rors well: "Where there is an obvious risk created by a health-care policy gaplike coordinated care in Glisson or medication refill oversight here—a plaintiff
need not show some minimum number of injuries to prevail." Dissent 36. Indeed,
the "issue is not exactly how often the policy failed" but "whether the system estab­
lished by Wexford policymakers reflected deliberate indifference to the inevitabil­
ity of human mistakes." Dissent 34. The Majority's decision to treat the frequency
of Wexford's failures as dispositive thus directly conflicts with Glisson and J.K.J.
Yet the Majority did not even attempt to distinguish either en banc ruling. Rehear­
ing is. thus warranted.. Indeed, frequency might affect the damages that a plaintiff is
entitled to—but Glisson and J.K.J. make clear that it is not a prerequisite to liability.
C. Hildreth demonstrated a deliberately indifferent Wexford system
for medication delivery under Glisson and J.K.J.
Contrary to the. Majority's ruling, reversal and a remand for triahwas war­
ranted in the present case, because a reasonable jury could "easily" rule for Hil­
dreth in light of Glisson and J.K.J. Dissent 35. As Judge Hamilton explained in dis­
sent, "Wexford's policies for renewing and refilling prescriptions reflect deliberate
indifference to the serious medical needs of Hildreth himself and other prisoners

- 11 -

. Sj)

Case: 18-2660

Document: 66

Filed: 06/16/2020

Pages: 63

who depend on reliable refills of prescriptions for medicines that are not kept on­
site at the prison." Dissent 25-26.
The analysis is straightforward. "Ample evidence showed that Wexford had
actual knowledge of Hildreth's Parkinson's disease, his prescription, and the need
to ensure a steady supply of the medicine." Dissent 35. And "Wexford surely had
actual knowledge that some prisoners would have similarly urgent needs for crit­
ical prescriptions not available on-site at the prison." Id. "Given that actual
knowledge of serious medical needs, Wexford had a constitutional duty" under
the Eighth Amendment "to take reasonable steps to avoid or minimize the risk of
lapses in medication"—i.e., "to put in place a reasonably reliable system for renew­
ing and refilling such critical non-formulary drugs and to monitor the perfor­
mance of that system." Id.
"A jury could easily find" that Wexford failed to honor this constitutional duty.
Id. Its medication "system was not reasonably calculated to be reliable because the
system had no warning channel and back-up mechanisms by which it could fix
mistakes without unnecessary suffering." Id. "[F]or a system so critical to health—
and one with many possible points of failure—it lacked warnings to alert Wexford
to inevitable mistakes or oversights." Id. These gaps in Wexford's system "not only
prevented Wexford from catching mistakes before patients suffered"; it also "pre­
vented Wexford from learning about even repeated failures." Dissent 35-37. Indeed,
even though Wexford was responsible for inmate medications, "Wexford [was] not
involved in the grievance process" at all, the only avenue that Hildreth had to com­
municate problems with his medication supply. Dissent 37; Hildreth Br. 12.
In essence, Wexford started up the medication "assembly line"—and then
walked away for good, without leaving its contact information, Dissent 28,
- 12 -

Case: 18-2660

Document: 66\

Filed: 06/16/2020

Pages: 63

"wish[ing]" everyone under its care "Godspeed." J.K.J., 2020 WL 2563256, at *12.
"[I]n pain," Hildreth was left to "scream[] into a void." Dissent 38.
That is deliberate indifference under Glisson and J.K.J. Wexford's "unreasona­
ble 'conscious decision not to take action' in the face of a serious medical risk" —
about which Wexford had actual knowledge—"is akin to the decision of the deV

.

••

fendant in Glisson to forgo a protocol for coordinated care to chronically ill in­
mates." Dissent 36 (quoting Glisson, 849 F.3d at 381). It is also akin to the County's
decision in J.K.J. to ."stand idly by while the female, inmates under its care were
exposed to an unmistakable risk that they would be sexually assaulted." 2020 WL
2563256, at *13. And the harm that Hildreth suffered from Wexford's medication
system was real. Indeed, no one has ever disputed that lapses in his medication
were "exceptionally painful and dangerous." Dissent 30.
On this record, a reasonable jury could "easily" rule for Hildreth on his Monell
claim against Wexford, and the panel should have "reverse[d] and remand[ed] for
trial." Dissent 35, 41.
CONCLUSION
The petition for rehearing or rehearing en banc should be granted.

- 13 —

z.r

' 70

REASONS FOR GRANTING PETITION
1).

Ori2 of the main reasons for granting the petitioner the best
reason for granting the petition is that like it is stated,in
page 9 of this petition,INTRODUCTION AND RULE 35 (b)(1) STATEMENT.
Judge Hamilton explained that the Majority's decision is at odds
with that courts own precedent.That their decision "adopts a high-;
ly restricted approach to establishing a MONELL custom",in prison
health-care cases that is "at odds with [this Court's]precedent"that
reward[sj... deliberate ignorance" by prison medical contractors,and
that incorporparates reasoning that is "just clearly wrong".Rehearing
is necessary.
2.)
Not because what I (petitioner),says,but what the U S Federal
Court Judge David F Hamilton,said in dissent ' Quote"Hildreth has
offered sufficiant evidence that Wexford knew of his serious health
needs-which required reliable timely refills of Parkinsons medication
acted unreasonably in response to those needs", (see first paragraph
,pg 22 of Apendix C)
3.)

Further Judge Hamilton states,"Wexford did not include,warnings
and back-ups to correct inevitable mistakes,thats enough to show de­
liberate indifference under Farmer v Brennan j 511 U S 825,; 843-44(1994)
and Glisson v Indiana Dept, of Corrections,849 F 3d 372,382(7th Cir
2017)(en bonck)I respectfully dissent.
JudgecHamilton again,(Dissent pg 23 #10 2660,second paragraph),
Quote, Wexford argues and the Majority opinion agrees,that plaintiff
does not offer evidence of sufficiantly wide spread problems with the
timely refills of critical,life changing prescriptoons at Menard G G
or other prisons where Wexford contracts.I explain below why I dis­
agree.But if a similar plaintiff must prove that the system infact
fails more,;frequent>ly and not just for him, his demands for broad
disscoverl into other inmates experiences with Wexford and its refilll system should be undenieble.
Moreover a good deal of such evidebce appears to be discoverable
other federal law suits provide sources of such evidence and describe
prescription refill problems at Menard during the times relevent to
here see e g First Annual Report of Monitor Pablo Stewart M D at
47,Rasho v Walker No 07 CV 1298,( C D ILL May 22 2017),..see pg
24 first paragraph last sentence,and pg 28 completely of Appendix C

4.)
Plaintiff should not have his claim denied,dismissed any negitive
order or judgement against his claim based on not getting or having
medical confidential medical information on another person or inmate
or medication info medical or medication history of another.Especially
due to it being confidential and unaccssable to him by law !
5.)

Wexford argues that Hildreth's grievances cannot be used to infer
that it knew about systematic failure to its medication polacies and
this precludes libility:
"Wexford is not invovkved in the greivance process,and would
not know of contents of a grievance unless an IDOC employee notifies
Wexford about it.Even then,that individual would have been a member
of the onsite healthcare staff, not necessarily a polacy maglei^'
/•

V!>1 dl
n
TV 4

..As such,Wexford polacymakers had no reason to know that any alleged
issue existed."
Brief for Appellee,Wexford at 21. This argument has things exactly
baclcwords: Wexford1 s lack of involvement in the grievance process makes
it more culpable strengthens Hildreth's claim.Humans make mistakes.In
implementing systems known to be critical to life,health,and safety,
a company like Wexford must allow for such mistakes and take reasonable
steps to provide warnings and back-up systems.Federal Courts do not
and should not design the specifics.As noted through the eighth amemment ,requires reasonable responses to known risks where prisoners can­
not protect their own health and safety.Wexford 's addmission that
it lacked any polacy to learn about inmates c tmplaints supports the
conclusion that its prescription polacies created an unacceptible
risk of harm resulting from this form of deliberate indifference to
Hildreth's(and others),serious medical needs.
Daniel v Cook County addressed this point :if a grievance system is
part of a jails or prisons system for communicating and responding
to health care requests ,and if the system fails in a way that causes
a deprivation of needed health care,then the problem with grievance
system may be an important part of plaintiffesjcase for delibarate
indifference to his health careneeds
B33 F 3d at 737.We also said
of course,that the dangers of delayed response to medical reqests
are readily apparent.Thomas 604 F 3d at 304.In the face of such danger
it is unreasonable for a medical polacy maker to cut itself off from
important feedback about failiures or lapses in its polaces.
Dividing resposabilitied ,between private contractors,and state agencies
can increase theese risks.In such cases,the law should and does pro­
vide incentves for actors to take resonable steps to mitigate known
dangers.The law should not do whatnthe Majority s opinion s reasoning
does hererreward divided responsibility and deliberate ignoreancayby
those who control prisoners onlyc.access to health care .Hildreth s
grievance 's give the impression of a person in pain,screaming out
into the void.Hekjrord11 ignored; Hildreth's grievances, seemingly by design
And when Hildreth used the only other avenew available-communication with
nurseshe was told only to"wait and see" if the refill would come.On this
record we should reverse summary judgement for wexford.(Judge Hamilton in
Dissent)
The majority opinion adopts a highly restricted approach to esablish
a MONELL
___ custom that is at odds with our presendent.The majority looks only
at the raw number of alleged failures and the time period over which they
tok place.Antell-13 .It views the broader polacy decisions and context surrounding the violations as immaterial.This approach divorces the legal
doctrine from its purpose of identifying those cases in which government
or corporate polacy causes and fails to address predictable failures to
provide needed medical care. After acknowledging that we have adopted no
BRITE LINE RULES for establishing a MONELL custom,the majority opinion
adopts one by saying that the number of possibly unconstitutiona; inciden
ts must be more than three .Ante 11
Furthermore its not just the lone Judge Hamilton,on the rare en bonch
we picked up three more U S COURT JUDGES who agreed ,judges,Rovner,Wood,.'
Scudder,also dissenting from denial of rehearing en bonch.
And the original decision concerning this summary judgement was denied
by judge magistrate Wilkerson Donald G.see docketing statement Appendix
E
R2

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

:■ is

1(^1 ~ ? o

